RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-329
Winston-Salem Industries for the Blind,
Petitioner,
v.
United States of America; PDS Consultants, Inc.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Reply Brief for Petitioner in the foregoing case contains 2,999 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 20, 2019.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

